U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL



AUDIT OF FUEL PROCESSING
RESTORATION PROPERTY



        The Office of Inspector General wants to make the distribution of its
reports as customer friendly and cost effective as possible. Therefore, this
report will be available electronically through the Internet five to seven days
after publication at the following alternative addresses:

Department of Energy Headquarters Gopher
gopher.hr.doe.gov

       Department of Energy Headquarters Anonymous FTP
 vm1.hqadmin.doe.gov

   U.S. Department of Energy Human Resources and Administration
 Home Page
        http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the Customer Response
Form attached to the report.

This report can be obtained from the
U.S. Department of Energy
Office of Scientific and Technical Information
P.O. Box 62
Oak Ridge, Tennessee 37831




Report Number:   WR-B-96-04              Western Regional Audit Office
Date of Issue:   October 20, 1995     Albuquerque, NM 87185-5400


AUDIT OF FUEL PROCESSING
RESTORATION PROPERTY


TABLE OF CONTENTS


                                                                  Page
                     SUMMARY   ...................................... 1
         PART I    - APPROACH AND OVERVIEW    ........................ 2
        Introduction ................................. 2
        Scope and Methodology ........................ 2
        Background     ................................... 3

        Observations and Conclusion    ..................   4
    PART II - FINDING AND RECOMMENDATIONS      ..................   6
   Management of Fuel Processing
   Restoration Property ......................... 6

PART III - MANAGEMENT AND AUDITOR COMMENTS     .............. 11
U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
OFFICE OF AUDIT SERVICES
WESTERN REGIONAL AUDIT OFFICE

AUDIT OF FUEL PROCESSING RESTORATION PROPERTY

          Audit Report Number:   WR-B-96-04       October 20, 1995

SUMMARY

                In April, 1992, due to a diminished need for reprocessed uranium,
the Secretary of Energy terminated the Fuel Processing Restoration (FPR) project.
The termination left management and operating (M&O) contractors at the Idaho
National Engineering Laboratory (Laboratory) with over $54 million in tools,
equipment and material to be retained, utilized or disposed of. The objectives of
the audit were to determine whether FPR property was adequately accounted for and
whether the property was properly redistributed or excessed when the FPR project
was terminated.

               Although some of the FPR property was effectively utilized within
the Laboratory, the Department of Energy (Department) and its contractors did not
completely and accurately account for the $54 million of property and promptly
redistribute or appropriately excess the property. A significant amount of the
property reviewed was not accounted for in the Department's approved property
management system. In addition, we identified over 2,700 stock items which had
neither been identified for redistribution nor excessed. Lastly, only a limited
amount of property distributed outside of the Laboratory was ever placed in the
Department's excessing system which makes property available throughout the
Department and to other Federal agencies.

               We recommended that the Manager, Idaho Operations Office, ensure
that a wall-to-wall inventory be performed on property remaining at the Laboratory;
all FPR property be properly marked, tagged, and accounted for in the Laboratory's
approved Government property record; and, all surplus property be excessed in
accordance with applicable rules and regulations.

               Management concurred with the finding and recommendations presented
in the report and has already initiated corrective actions in response to the
recommendations.



                                 ____________________________________

PART I

APPROACH AND OVERVIEW

INTRODUCTION

        The Office of Inspector General has issued numerous reports identifying
opportunities for the Department of Energy to improve its management of personal
property. In March 1994, we issued a "Summary Report on the Department of Energy's
Management of Personal Property," (DOE/IG-0344) highlighting property issues
spanning almost a decade. Consistent with our earlier work, the purpose of this
audit was to determine whether the Department, Idaho Operations Office and its M&O
contractors effectively managed the property related to the FPR construction
project upon termination. Specifically, our objectives were to determine whether:
(1) FPR property at the Laboratory was adequately accounted for; and (2) property
was properly redistributed or excessed when the Department terminated the FPR
project.

SCOPE AND METHODOLOGY

        The audit was performed at the Laboratory from September 1994 to May 1995.
To accomplish the audit objectives, we interviewed key personnel at all management
levels and reviewed:

Federal and Departmental regulations governing property accountability and
utilization of excess property;

documentation and controls used by Idaho and its management and operating
contractors to account for FPR property remaining upon project termination;

Department approved property system and inventory records;

contractor's inventory reports; and,

excessing procedures and documentation.

        During our audit, we reviewed FPR property controls by examining different
items acquired for the FPR construction project. The total universe was segregated
into two separate groups of property: government furnished equipment, i.e.,
property purchased directly for a facility, and subcontractor acquired property.

        Government furnished equipment consisted of approximately 3,040 items valued
at $32 million. From this, we judgmentally selected for review 210 capital items
valued at $20.5 million. Subcontractor acquired property consisted of
approximately 8,360 items valued at nearly $22 million. From this, we judgmentally
selected for review 266 capital and sensitive items valued at over $655,000.

        The audit was performed in accordance with generally accepted Government
auditing standards for performance audits and included such tests of internal
controls and compliance with laws and regulations to the extent necessary to
satisfy the objectives of the audit. Accordingly, the audit included an assessment
of significant internal controls over the receipt, accountability, and excessing of
FPR property. We did not rely extensively on computer processed data and,
therefore, did not fully examine the reliability of the data. Because our review
was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit.

BACKGROUND

        In 1982, plans for constructing the FPR facility began at the Laboratory.
The reason for constructing this facility was to enhance the Laboratory's ability
to provide fuel reprocessing capabilities for recoverable irradiated fuels within
the Departments of Energy and Navy up through the year 2030. Construction on the
facility began in Fiscal Year 1986 with a target completion date of 1994. During
the first part of Fiscal Year 1992, the project was rebaselined due to significant
cost and schedule overruns. In April 1992, however, the Secretary of Energy
terminated the FPR project because of a diminished need for reprocessed uranium.
        Subsequently, project managers from the Idaho Operations Office and two of
its M&O contractors, Westinghouse and MK-Ferguson, drafted a Utilization and
Disposal Plan for acquired FPR property. The plan outlined each contractor's
responsibility to ensure that the FPR property was either retained, utilized, or
disposed of in an economical and efficient manner. According to the plan, the
Idaho Operations Office was responsible for providing general guidance for property
disposition and approving the Utilization and Disposal Plan. Westinghouse was
responsible for the accountability and disposition of $32 million of government
furnished equipment related to the FPR project. MK-Ferguson was assigned the
responsibility of negotiating the termination agreements with six subcontractors
involved in the project. After the final settlement, MK-Ferguson assumed control
of approximately $22 million of subcontractor acquired property including tools,
equipment and materials.

        EG&G Idaho, Inc. (EG&G), the common support contractor, was responsible for
administering the Department approved Property and Equipment Control System
(property system) for the Idaho Operations Office and excessing any unneeded
property maintained at the Laboratory. All property acquisitions or dispositions
by other M&O contractors were to be reported to EG&G who would update the property
system based on reported actions. Excess property transferred to EG&G was placed
in the Department's Reportable Excess Automated Property System (excess system) for
possible use by another Departmental facility or to be sold as scrap.

        On October, 1, 1994, a contract was awarded to Lockheed Idaho Technologies
Company (Lockheed) which consolidated management and operating functions of five
contractors to one consolidated contract. Lockheed accepted responsibility for all
contractor-controlled property. However, due to inconsistencies in contractor
inventories, Lockheed had not accepted liability for property inventories from
incumbent contractors. Liability for the property will be assumed by Lockheed upon
completion and acceptance of the Laboratory's wall-to-wall baseline inventory. In
fact, Lockheed initiated a wall-to-wall inventory of FPR property during our audit
to determine the quantity of FPR property located at the Laboratory. Although
Lockheed was not responsible for any conditions cited in the report, they will be
tasked by the Idaho Operations Office to take the corrective actions required by
our report recommendations.

OBSERVATIONS AND CONCLUSIONS

        Project managers at the Laboratory have saved the Department a substantial
amount of money by utilizing some of the property from the FPR contract
termination. In fact, over 100 different individuals at the Laboratory have
requested items from the FPR property inventory. One organization alone estimated
a cost savings in excess of $600,000 for its projects by utilizing the available
material to assist in construction and modification of research labs.

        While we recognize that some Laboratory managers efficiently utilized the
FPR property, the Department and its contractors have not completely and accurately
accounted for the $54 million in FPR property and did not promptly redistribute or
appropriately excess FPR property. For example, at least $4.2 million of $21.2
million (20 percent) of FPR property reviewed was not adequately accounted for in
the Department's property management system and only 44 of the 1,490 items excessed
outside the Laboratory were ever entered into the Department's system for excess
property. These conditions occurred because project management did not account for
the property in accordance with established Departmental and local property
management guidelines. Although we were able to physically locate most of the
property we tested, the lack of accountability rendered the property readily
susceptible to undetected theft or loss. In addition, at least $43,000 in property
items were purchased by the Laboratory when these items were already available in
the FPR inventory. This may be an indication of a significant problem considering
that there are approximately 2,700 different stock items still on hand which have
not been identified for reutilization or excess. Finally, improper accounting of
property and equipment could result in a material misstatement on the property
section of Idaho's financial records.

        In our opinion, the finding in this report disclosed material internal
control weaknesses that the Department should consider when preparing its year-end
assurance memorandum on internal controls.

PART II

FINDING AND RECOMMENDATIONS

Management of Fuel Processing Restoration Property

FINDING

        Departmental property management regulations require that property be
completely and accurately accounted for. These regulations also emphasize the
importance of promptly redistributing or excessing surplus property to ensure
efficient use of available resources. However, as the Department and its
contractors took custody of nearly $54 million in FPR property, they did not
completely and accurately account for, promptly redistribute, or appropriately
excess FPR property. For example, at least $4.2 million in FPR property was not
accurately accounted for and excessing procedures were not followed. This occurred
because project management did not adhere to either established Departmental
property requirements or local property management guidelines to control FPR
property. A significant amount of property was unaccounted for and unutilized. In
addition, the Department procured over $43,000 in property which was already
available from the FPR project inventory. Finally, property was subject to an
increased potential for loss or theft. Since our review covered only $21.2 million
of the $54 million in FPR property, these numbers will likely increase when
Lockheed completes its inventory. This, in turn, could have a material effect on
the financial statements if these assets are not properly recorded.

RECOMMENDATIONS

     We recommend that the Manager, Idaho Operations Office, ensure that:

a wall-to-wall inventory of all remaining FPR property at the Laboratory is
completed;

all FPR property transferred to end users or retained within the Laboratory, is
properly marked, tagged, and accounted for;

all FPR accountable property is placed in the Laboratory's Department approved
property record; and,

all surplus property, for which retention cannot be justified, be excessed in
accordance with applicable rules and regulations.


          MANAGEMENT REACTION
               Management concurred with the finding and recommendations, and has
initiated corrective actions. Detailed management and auditor comments are
provided in Part III of this report.

DETAILS OF FINDING

        Departmental policy requires the establishment of a program which ensures
that complete and accurate accountability of government property is maintained. In
addition, Departmental regulations require that excess property be promptly
identified so that excess property is available for use by others. Further, any
deviation from Departmental policy requires approval of the Director of Procurement
and Assistance Management.

ACCOUNTABILITY OF FPR PROPERTY

        After the FPR project was terminated because of a diminished need for
reprocessed uranium, the Laboratory's M&O contractors took custody of nearly $54
million in FPR property. We found that the project had acquired government
furnished equipment consisting of 3,040 items valued at $32 million and subcontract
acquired property consisting of 8,360 items valued at $22 million. We judgmentally
reviewed 210 and 266 items from the respective lists of property. Our review
showed that approximately $4.2 million of the property was either not accounted for
or inaccurately recorded in a Department approved property system. Specifically,
Westinghouse did not account for $3.58 million in government furnished equipment
and MK-Ferguson did not account for approximately $655,000 of the property acquired
by the subcontractors.

Westinghouse

        Westinghouse's accountability over property was incomplete and inaccurate.
Our review showed Westinghouse had not placed 54 items valued at $3.2 million in a
Department approved property system. For example, it had not accounted for 4
evaporator vessels worth $481,000 and had omitted 15 manipulators valued at
$688,000. In addition, Westinghouse's accountability over the property was
inaccurate. For example, it included 17 extraction columns valued at $381,000 in
the property system even though the columns were excessed on May 2, 1994.

MK-Ferguson

        MK-Ferguson also did not establish adequate accountability for property
obtained as a result of the FPR project termination. For example, MK-Ferguson
placed $655,000 of FPR property in its own commercially developed database.
However, MK-Ferguson never requested or made its database available to Idaho's
Organizational Property Management Officer for approval. Significantly, the MK-
Ferguson database did not have adequate controls to ensure the integrity and
accuracy of data and did not interface with any Department approved system.
Through this system, for example, one individual was issued property under 15
different configurations of the same name.

        MK-Ferguson also did not account for FPR property when it was redistributed
for use at the Laboratory. As MK-Ferguson removed property from its database for
redistribution it was not added to any other database, including the Department
approved property system operated by EG&G. Our review of 224 sensitive and capital
items redistributed within the Laboratory disclosed that 103 sensitive items and 27
capital items were not accounted for in any property system. The 103 sensitive
items included computer hardware, power tools, portable welders, and typewriters
while the 27 capital items included welders, flat bed trailers, heavy duty shop
equipment and a Xerox copier. Because these items did not appear in any property
system, there was a potential for undetected theft or loss.

Unaccounted For Property

        In spite of the fact that a substantial amount of the property controlled by
Westinghouse and MK-Ferguson was not adequately or accurately accounted for, we
found that most of it could be physically located.

PROMPT REUTILIZATION AND EXCESSING OF FPR PROPERTY

        Although the Laboratory's M&O contractors made significant efforts to
reutilize excess FPR property when the project was initially terminated, recent
efforts to reutilize or excess the remaining property have diminished. A
Westinghouse official, for example, believed that all FPR property was either
retained, reutilized or excessed. Our analysis, however, showed that a significant
amount of property was still in the FPR inventory. Of the initial 8,360 stock
items, for example, approximately 2,700 items were still in the inventory and had
neither been identified for redistribution nor excessed. We also observed that a
majority of these items such as reinforcing steel, sheet metal, pipe fittings,
nuts, tools, and piping were related to construction activities and, thus, appeared
to be useful for other Laboratory projects.

        We also found that very little property distributed outside the Laboratory
was ever placed in the Department's excessing system which makes property available
throughout the Department and to other Federal agencies. In fact, only 44 of the
1,490 stock items distributed outside the Laboratory were placed on this excess
property system. The remaining items were either disposed of as scrap or
distributed to other Departmental facilities on an informal basis. Westinghouse
project management, for example, established contact points at various Departmental
facilities; they then listed the unneeded FPR property by type and sent these lists
to established contacts via letter and facsimile. All property requests from these
lists were sent to the Westinghouse project manager who would ultimately approve
the property transfer if the property was still available in inventory. As a
result of using this procedure, the FPR property was not available to all elements
of the Department or other Federal agencies. Thus, potential customers did not
know that unneeded property was available and a lot of that property has gone
unclaimed.

ACCOUNTABILITY AND EXCESSING CONTROLS

        Inadequate accountability and excessing controls over FPR property existed
because project management did not follow established Departmental property
requirements and did not consistently adhere to the business practices established
in local property management guidelines.

        Under established Departmental property guidelines, for example, sensitive
and capital property acquired by the Department is to be marked as "Property of
U.S. Government" and assigned a control number for accountability purposes in
EG&G's approved property system. However, as the contractors received property
relating to the FPR facility, these controls were overlooked. Thus, property was
not accounted for properly. Our review of 215 judgmentally selected sensitive and
capital items valued in excess of $531,000 disclosed that 82 items (38 percent) had
not been marked, tagged, or assigned a control number. This included three flatbed
fifth wheel trailers valued at $21,819 and specialized welding equipment valued in
excess of $80,000. Because this equipment was not identified, it was not entered
into EG&G's property system and, thus, could not be accounted for.
        Additionally, items we verified as being placed in the property system had
not been accounted for and forwarded to EG&G in a timely manner. Some FPR
property, for example was not included in the property system for up to ten months
after it was received by the M&O contractor. For example, a computer from the FPR
inventory was transferred to a property custodian on July 30, 1993. However,
according to Idaho's property system, the computer was not tagged and assigned a
control number until May 1994.

        Property management guidelines require that when the property is no longer
needed, appropriate property officials be notified so that the unneeded property
can be redistributed elsewhere. If the property is unclaimed, it is transferred to
EG&G for excessing. In contrast, the Utilization and Disposal Plan which was
developed by project management following termination of the FPR project did not
require adherence to established property management guidelines. Property was
redistributed without the approval or involvement of property officials. Our
review of the FPR Property Utilization and Disposal Plan disclosed that the
redistribution or excessing of FPR property was solely controlled by project
management, not knowledgeable property officials. The plan avoided established
property management guidelines because FPR project managers felt that if property
was turned over to property officials, the property would be scrapped or junked
rather than reutilized. Consequently, property officials were not informed of
excessing actions until the approval and transfer of the property had occurred.

POTENTIAL FOR LOSS AND WASTE OF GOVERNMENT PROPERTY

        Inadequate controls over accountability of government property and excessing
activities resulted in at least $4.2 million of $21.2 million (almost 20 percent)
not being properly accounted for or reutilized within the Department. Although we
were able to physically locate most of the property, the lack of property
accountability rendered the property readily susceptible to undetected theft or
loss. Furthermore, since the property was not marked, assigned a property control
number, or placed in Idaho's approved property management system, the property was
susceptible to undetected loss or theft. Also, because the property was not
included in the property management system, it would not be identified in the
periodic inventories performed on personal property. Thus, the property account in
the financial statements for the Idaho Operations Office could be materially
misstated. In addition, since the Laboratory has no accurate record of FPR
property available, the property continues to be unused even though it is readily
available. In fact, for an 18 month period, $43,000 in common use items were
purchased for the Laboratory when they were already available in the FPR inventory.

PART III

MANAGEMENT AND AUDITOR COMMENTS

        In responding to the Initial Draft Report, Management concurred with the
finding and recommendations. In fact, on April 19, 1995, Lockheed proposed an FPR
Action Plan to appropriately identify and account for FPR property and the Idaho
Operations Office concurred with the plan. Thus, Management has already initiated
corrective actions noted in this report. Management and auditor comments on the
recommendations follow.

Recommendation 1

        Management Comments. Management concurred, stating that the wall-to-wall
inventory, including count and reconciliation of FPR property, was completed by
Lockheed on September 29, 1995. This activity accounted for 8,331 property items
being inventoried. Idaho Operations Office validation(using statistical sampling)
of this inventory will be completed by October 31, 1995.

        Auditor Comments.   Management comments and actions are responsive to the
recommendation.

Recommendation 2

        Management Comments. Management concurred stating that marking, tagging,
and accounting for FPR property mentioned in Recommendation No. 1, above, will be
completed by November 15, 1995. FPR property that was previously transferred and
retained within the Laboratory will be counted, marked, and tagged as part of the
Laboratory's wall-to-wall inventory program. Item count and reconciliation of
these items will be completed by September 30, 1996. The Laboratory's baseline
inventory should be established by November 30, 1996.

        Auditor Comments.   Management's corrective actions are responsive to the
recommendation.

Recommendation 3

        Management Comments. Management concurred, stating that the FPR property
mentioned in Recommendation Nos. 1 and 2 will be placed in the Laboratory's
property management system by November 15, 1995. As the remaining FPR property is
located during the Laboratory's wall-to-wall inventory, accountable property will
be reconciled and placed in the property management system. This activity is part
of the baseline inventory that should be established by November 30, 1996.

        Auditor Comments.   Management's corrective actions are responsive to the
recommendation.

Recommendation 4

        Management Comments. Management concurred, stating that    property not
justified for retention is being excessed in accordance with Lockheed Property
Management Requirements Manual No. 16. This manual was approved by Idaho and
published by Lockheed in July, 1995.

        Auditor Comments.   Management's comments are responsive to the
recommendation.

                                               IG Report No. WR-B-96-04


CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as possible
to our customers'       requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

        1.     What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would have been helpful
to the reader in understanding this report?
        2.     What additional information related to findings and recommendations
could have been included in this report to assist management in implementing
corrective actions?

        3.     What format, stylistic, or organizational changes might have made
this report's overall message more clear to the reader?

        4.     What additional actions could the Office of Inspector General have
taken on the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.

Name ____________________________ Date______________________

Telephone _______________________ Organization______________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact Wilma Slaughter at (202) 586-1924.

 * * * *

continued footnote

footnote continues next page




13
